      NATIONALRAILROAD
      PASSENGER CORPORATION




Memorandum
To:           Eleanor Acheson, Vice President, General Counsel
              Joseph McHugh, Vice President, Government Affairs and Corporate
              Communications
              DJ Stadtler, Vice President, Operations

From:         David R. Warren
              Assistant Inspector General, Audits

Date:         July 8, 2013

Subject:      Follow-up Audit on Progress in Achieving Compliance with the American
              with Disabilities Act (Project Code 013-2013)

We are initiating a follow-up audit of Amtrak’s compliance with the Americans with
Disabilities Act (ADA). ADA became law in 1990 and required that intercity rail stations
be made accessible to persons with disabilities by July 26, 2010. In September 2011, we
reported that Amtrak had not met this requirement since only 48 of the 482 (10 percent)
stations it serves were ADA-compliant. Amtrak established a goal of having the
remaining stations ADA-compliant by September 30, 2015.


Our audit objective is to assess Amtrak’s progress toward achieving ADA-compliance
at the stations it serves. Our primary focus will be on assessing the progress made in
addressing issues raised in our prior report. We request that the Controls Group
arrange an entrance conference for us with the appropriate Amtrak officials at the
earliest possible date. We will keep you advised of the status of our work and any
material changes in our audit objectives.




                                                                                         1
Dorian Herring will be the auditor-in-charge for this assignment. If you have questions
regarding this audit, please contact me at (202) 906-4742,
(David.Warren@amtrakoig.gov) or Michael Kennedy, Senior Director, Audits, at
(202) 906-4308, (Michael.Kennedy@amtrakoig.gov).

cc:
      Dan Black, Acting Chief Financial Officer
      Bruce Pohlot, Chief Engineer
      Gary Talbot, ADA Program Director
      William Hermann, Managing Deputy General Counsel
      Matthew Gagnon, Senior Director, Controls Group
      Melantha Paige, Senior Audit Liaison




                                                                                          2
